OIG Audit Report 02-22
Assets Forfeiture Fund
and Seized Asset Deposit Fund
Annual Financial Statement Fiscal Year 2001
Report No. 02-22
June 2002
Office of the Inspector General
EXECUTIVE SUMMARY
The Assets Forfeiture Fund and Seized Asset Deposit Fund (AFF/SADF), an entity within the Department of Justice (DOJ), reports the amount of monies seized, along with the amounts realized from forfeitures, by agencies participating in the DOJ Asset Forfeiture Program (AFP).  The AFF/SADF also reports the operating expenses of the AFP and the status of property seized and forfeited.  In FY 2001, the AFF/SADF reported $707 million in forfeited property and $551.6 million in seized property.
The SADF and AFF were created to serve as repositories for seized funds and the sale proceeds from forfeited property.  The proceeds deposited in the AFF are used to cover the operating costs of the AFP.  These include payments to state, local, and foreign governments; joint law enforcement operations; contract services in support of the program; and satisfaction of innocent third party claims.  Operational expenses do not include the salaries and administrative expenses of AFP participants incurred while conducting investigations leading to seizure and forfeiture, and these are not reported in the AFF/SADF financial statements.
This audit report contains the financial statements of the AFF/SADF for the fiscal years ended September 30, 2001 and 2000.  Under the direction of the Office of the Inspector General, the audit was performed by PricewaterhouseCoopers LLP (PwC) which resulted in an unqualified opinion on the FY 2001 financial statements. An unqualified opinion means that the financial statements present fairly, in all material respects, the financial position and results of operations of the entity.  For FY 2000, the AFF/SADF also received an unqualified opinion on its financial statements (OIG Report No. 01-23).
Improvements have also been made in internal controls and the financial reporting process.  All prior year reportable conditions have been completed and no findings or recommendations were reported.  Issues identified by PwC were limited to matters considered to be less significant and these were communicated to management in a separate letter. No instances of noncompliance with laws and regulations were cited.